      IMPLEMENTATION OF THE STATE

     LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                   STA TE OF ILLINOIS




      '!IlVICE$.




'0


     1f"dIa




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                        OCTOBER 1989
                                                                                               " -




                        OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector General (OIG) is to promote the effciency, effective­
ness, and integrty of progrs in the United States Deparent of Health and Human Ser­
vices (HS). It does this by developing methods to detet and prevent fraud, waste, and
abuse. Created by statute in 1976, the Inspector General keeps both the Secreta and the Con­
gress fully and curently informed about programs or management problems and recommends
corrctive action. The OIG performs its mission by conducting audits, investigations, and in­
spections with approximately 1, 300 staf strategically located around the countr.


                     OFFICE OF ANALYSIS AND INSPECTIONS


This report is produced by the Offce of Analysis and Inspections (OAI), one of the thee
major offces within the OIG. The other two are the Offce of Audit and the Offce of Investi­
gations. Inspections are conducted in accordance with professional stadards developed by
OAI. These inspections ar tyically short- term studies designed to determe program effec­
tiveness, effciency, and vulnerabilty to fraud or abuse.

This study was conducted to determne the effectiveness of Ilinois ' implementation of State
Legalzation Impact Assistace Grats funds awarded under the Imgrtion Reform and Con­
trol Act of 1986.

The report was prepard under the diction of Don McLaughlin , the Regional Inspector Gen­
eral of Region VII, Offce of Analysis and Inspections. Parcipatig in this project were the
following people:



Kansas City                                 San Fransisco
Hugh Owens, Project Leader                  Apryl Willams
Raymond Balandron
James Wolf
Alicia Smith

Headquarters                               New York
Albert J. Nace                             Lucile M. Cop
Debra Robinson
  IMPLEMENTATION OF THE STATE

 LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                    STATE    OF   ILLINOIS




                       Richard P. Kusserow
                       INSPECTOR GENERAL




OAI- 07 -88-00446                            OCTOBER 1989
                                EXECUTIVE SUMMARY


PURPOSE
The purose of ths inspection was to determe how effectively ilnois implemented the
State Legalzation Impact Assistace Grants (SLIAG) program, to identi potential problems
early in the process, and to identiy goo practices which al States could share.

BACKGROUND

The SLIAG progr was established under the Imgration Reform and Control Act (IRCA)
of 1986 to reuce the fmancial burden of providig public assistace, public health assistace,
and educational servces to eligible legalze alens. In Fiscal Year (F) 1988, $928. mion
in progr fuds were alocated to States, and fuds wi contiue to be alocated thugh FY
1991. These fuds also cover admstrtive costs for implementig SLIAG at the State and
local levels. Payments ar made for public assistace activities generally avaiable to
needy individuals and public health assistance servces offered under the States ' public health
progrs. The payments also cover educational servces designed to assist eligible legalze
alens to attai a satisfactory level of performce in school and to achieve English language
proficiency and citizenship skis necessar to become permanent residents. The Famy
Support Admstrtion (FSA) is responsible for admsterig the progr.

Because stIAG was a new progr, FSA realze that problems would surace early in its
implementation. In addition to the norm diculties encountered in creatig new processes
and proedures, FSA recogn that SLIG would have unique problems. Some of these
issues include the diversity of programs which SLIAG encompasses, cultu and language
barers associated with the servce population, maintaing confdentialty of informtion , and
the extremely short tie fres for the grt award process.

METHODOLOGY

In response to the anticipated diculties with implementing SLIAG, FSA reuested that the
Offce of Inspector General (OIG) conduct reviews in 10 States to determe the progress of
States ' implementing ths progr. The FSA selected nine States and the Distrct of Columbia
because of the varety of program they offere the number of eligible legalized aliens in the
population , or the amount of the grant awar. The nie States ar Arzona, California,
Colorado, Florida, Ilois, Massachusetts, New York, Texas, and Washington.

Intervews based on   strctu discussion guides for each major program ara, as well as
documentation fuished    by  FSA and State and local offcials, built the base of information for
ths report. This report represents the review conducted in the State of llinois and reports on
its implementation of the SLIAG progr as of August 1988.
Both FSA and ilnois were    commtt to identiying problems and developing innovative and
effective solutions for them. Imedately following our on-site visits, FSA was given an
outle of the State concerns identied in this report


FINDING:    Since     FSA ha held national conferences and issued informtion to States
                    1987,

on implementing the SUAG program.


             The FSA held several national conferences beging in 1987 to share
             inoration with States on SLIAG legislation, the implications for States, the
             application process, and the documentation of costs.

             The FSA also provided States with "Question and Answer" issuances and
             demographic data from the Imgration and Natuzation Servce (IS).


FINDING: Illnois established a structue to identify organizational and program needs.


             The Deparent of Public Aid has been assigned overal responsibilty for
             SLIG plang. The Deparent held numerous meetigs with State and local
             agencies to obta their input on SLIAG implementation.

             Chicago established an overa planng and coordiation agency to develop.
             SLIAG-related programs and operations and to share inormation with other city
             and State agencies on policy, procedures, and statistical data.


FINDING: Illnois also took steps to document exenditures and control disbursements.


             The Deparent of Public Aid has contracted with a consulting   fi
                                                                            to evaluate
             the State s systems and determe what modcations of present systems or
             expanded systems ar needed to implement SLIAG.

             To faciltate progrm implementation and monitoring, the State Board of
             Education established a policy limitig the amount of educational expenses. At
             the tie of the review, the amount was lited to a maximum of $4 per hour.


Neverteless, there are some funds contrl vulnerabilties.
FINDING: The Illnois Departent of Public Health was unsure about its responsibilities for
implementing SUAG and the amount of funding available for SUAG purposes.

FINDING: The FSA         applicatin review    process created a numer of signifcant problems for
Illnois. Also, the FSA'   s applicatin   review process interfered with the State s ability to plan
for services.




                 Delay in FSA issuing the implementing regulation resulted in the State
                 inabilty to properly plan for SLIAG.



                 Numerous policy misinterpretations and disagrments resulted because FSA
                 did not provide defmitive wrtten instrctions to assist Ilois in understadig
                 SLIAG application requiements.

                 The tie fres were too short for submittg the intial SLIAG application
                 FSA review and comment, and revisions of the application.


                 review.
                 No formal appeals process exists if progrs or costs ar    denied in   the fIrst level



FINDING: The State was unale to access minimal eligible legalized alien informtion in
INS files.


                 In many cases, State records did not provide fle information for specifc
                 identication of eligible legalze alen status. Although INS fles conta
                 identier inormation, procedurs did not exist to permt access to that fIle
                 inoration which would alow Ilois        to retractively identiy servces to
                 eligible legalzed alens.


FINDING: State systems to identify eligible legalized aliens and associated costs were not
operational at the time of this review.

FINDING: The FSA' s definition of public assistance includes some public health activities
which created adinistrative      and service delivery problems for Chicago.

As mentioned earlier, FSA and llinois have aleady initiated action on some of the
recommendations made in this report. Steps have been taen by FSA to provide States with
more specifc, formal guidelines for identifying and documentig actual program and
adstrative costs. However, additional actions ar necessar in other areas on the par of
FSA and llliois.
       . .




RECOMMENDATION: The Illnois Departent of Public Aid should provide fuNher
guidance to the Illinois Departent of Public Health regarding the functions exected of the
Illnois Department of Public Health and the funding available under the SUAG program.
Also, the Illnois Departent of Public Health needs to understand how to monitor and report
program and adinistrative costs for health program classifed as public health.

RECOMMENDATION: The FSA should make its application and grant process more
orderly. Specifcally, FSA should


             provide defitive wrtten instrctions on the SLIAG application requirments
             and establish a dialogue with Ilois on SLIAG policy, compliance, and
             reportg issues to  mie       the confsion that occured in the initial application
             process;

             ensur that sufficient   tie is alott to the application process includig ilnois
             intial application, FSA' s review and formal comment, llliois '
                                                                           consideration of
             FSA comments and negotiation of disputes, and its .submission of the revised
             application for FSA approval; and

             develop an appeals process to use if progr or costs associated with providing
             servces are denied in the initial application proess.



RECOMMENDATION: The FSA should coordinate with INS to conduct matches of State
and INS records to permt the State to ma retroactive determinations of SUAG eligibilty for
public assistance and education, as well as public health assistance.

RECOMMENDATION: The Illnois Departent of Public Aid should complete developing
the automated system to monitor and control SllAG exenditures and disbursements. Also,
the Illnois Departent of Public Aid should adequately instrct local components and
agencies on the policy and procedures for identifying and keeping track of costs.

RECOMMENDATION: The FSA should reconsider its position to classif ceNain public
health services as public assistance and mae apprl(priate adjustments to this position.



COMMENTS

The FSA and the State of Ilois both commented on the drt report. Both generaly agreed
with our fmdings and recommndations. Both reported having taen a number of steps to
improve implementing SLIAG. We have moded the report based on their comments , which
are included verbati in appendices B and C.
                                                    .... .... ....... ......... ... .... ................ .......
                                            ...... .....
                                     ............                                                                                                      ........
                                                                                                                                                        ....... ...
                                                                                                                                                                ......




                                                  TABLE OF CONTENTS



EXECUTIVE SUMMARY


NTRO DU CTIO N .... ....                                                                                                        ..... II ...   811811..811.. II 11..8. .811 1
                                                                                                                                               II





ILLINOIS' ORGANIZATIONAL STRUCTURE                                                   .............................................. 3


FINDINGS AND RECOMMENDATIONS .............................I1...............8118..811118a1111......... 4


           Pu bl ic Assistance ... .... II....... II.... ... .....11...... ......... II........... II..11...8.8118.8.. ........ II.....
 6


           Pu bl ic Health Assistance. ...... II... ..... ..... ....... ....... II....... II........8118...D IIII                                                    ..11 8



           Ed ucati 0 n ... ...... ....... ... 811...... all... .... ... D.Ii..... II... II. ... ...8 .....8.8. ...... IIII.. DD II a. 1111118118..II.... 1 0


           Local Ag ncies .                              II   .... .... ... ...11...... ...... ...... ...8...... II........ .... ..11........ 


           Crosscuttin g Issues.......................                               .1111.   .11....... .....            11.1111......1111........
                                                                                                                 ....1111""                           ..11 II....   ... 





OIG RES.PONSE              TO COMMENTS ...................11........11...........11....,....11.....1111110....,......... 


APPENDICES

           APPENDIX A: Good Practices..............................,................................. A-1


           APPENDIX B: FSA' s Comments ......................................................... B­


           APPENDIX C: Illinois ' Comments .......................................................

                                     INTRODUCTION



PURPOSE
The Famy Support Admstrtion (FSA) reuested that the Offce of Inspector General
(OIG) conduct an inspection in nie States and the Distrct of Columbia to determe how
effectively the States implemente the State Legalzation Impact Assistace Grts (SLIAG)
progr awarded under the Imgration Reform and Control Act (!CA) of 1986. The
inspection included reviewig mechansms in place to identi these funds and determning
whether present or projected policies and proedures adere to FSA guidelies. The FSA also
was interested in identig potential problems early in the process and goo practices which
al States could shar. Ths report presents the results of the inspectionpertg  to the State
of Ilois.



BACKGROUND

Under IRCA , eligible legalze alens may apply for permanent residency with a I- year
period afr they ar fIrt eligible (i.e., by the 31st month afer they receive temporar resident
status).

Ths new popultion wi incrase the demand for State public assistace and public health
assisumce servces signcantly. It wi also incras the demand for State educational
servces as these new residents obta Englsh language and civic skis     neeed to become
  S. citizens.

To help States defry many of the costs of providing public assistace, public health
assistace, and educational serces to eligible legalze alens, IRCA authorize $1 bilon
each year from Fiscal Year  (F    1988 thugh 1991 for SLIAG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legalzed aliens are ineligible
for federaly funded public assistace progrs such as Aid to Fames with Dependent
Chdrn (AFC), foo staps, and Medcaid. The "Fedral offset" is the estiated cost
the Federal Governent of providig these servces or benefits to those few legald alens
who ar eligible for them. In FY 1988, the law alocated $928. 5 millon to States.

To reeive SLIAG fuds, States must apply to the FSA Division of State Legalation
Assistace, which is responsible for approving applications and admnistering the program.
The application must be approved in tota for a State to receive any SLIAG funds. The FSA
also provides States with tehnical assistace on policy issues and on the methods used to
determne costs and verify actual costs.
 The basic reuirment for States to clai reimburement is that costs must be alowable,
reasonable, and allocable. State public assistance and public health assistace program must
be the same ones avaiable to the general public. States cannot create new program in these
aras speifcaly for eligible legalze alens. However, States may create new or adtional
education progrs for the eligible legalze alen population. States may also clai
reimbursement for progr adistrtive and SLIAG adnistrative costs.

 Reimburement for public assistace and public health assistance is limite only to the amount
 of State and local funds expende for SLIAG-related costs. The maum       SLIAG
reimbursement for educational servces is an average of $500 per year per eligible legalzed
alen. Determg progr adistrtive costs is mad in accordce with the fmal
reguation at 45 CP 402. 22.

The FSA is responsible for adisterig the program Because SLIAG was a new program,
FSA  real    that problems would surace early in its implementation. In addtion to the
norm diculties encountere in creatig new processes and predures, FSA          recogn
that SLIG would have unque problems. Some of these issues include the diversity of
  progr  which SLIAG encompasses, cultu and language barers associated with the
. servce population, maitag confdentialty of information , and the extrmely short tie
  fres for the grant award process.

 METHODOLOGY

The FSA selecte nie States and the Distrct of Columbia for the inspection because of the

varety of program offere the number of eligible legalize alens in the population , or the

amount of the grt. The nie States are Arona, California, Colorado, Florida, llinois,

Massachusetts, New York, Texas, and Washington. Ths report reviews llinois

implementation of the SLIAG progr as of August 1988.


Pror to conductig the inspetion, the OIG   develope   strctud discussion guides for each
major progr activity at the State and local levels. In conductig this review, intervews
were held with offcials frm the Ilois Deparent of Public Aid, the Ilois Deparent of
Public Health, the Ilois State Boar of Education, the Chicago Commssion on Human
Relations, the Chicago Deparent of Public Health, the Chicago Community College, and a
community- based organtion, the Polish Welfare Association.
                  ILLINOIS' ORGANIZATIONAL STRUCTURE



Each State designated a single point of contact to admster and coordiate the SLIAG
progr. The Director of the ilnois Deparent of Public Aid, which is responsible for
public assistace in Ilois, is the State s single point of contact and the grantee agency.
Whe the agency dictor is the designate single point of contact, program responsibilties
have ben delegate to individuals within the Ilois Deparent of Public Aid' s Bureau of
Prgr     Services. The burau is responsible for SLIAG progr planning and operational
functions. The Ilois Deparent of Public Health is responsible for public health on the
State level. The Ilois State Board of Education is respnsible for statewide education
progrs. Admstrtion is a function of all     th      components. The Ilois Deparent of
Public Aid compiles and report their adstrative expenditus; its fiscal offce handles
processing SLIAG fuds.

The Ilois Deparent of Public Aid maages the Genera Assistace program under a State
adstered system in the Chicago/Cook County area. Elsewhere in the State the progr
localy adstered Al other assistace progrs ar          adistere    statewide by the Illinois
Deparent of Public Aid In Chicago, agencies provide cash, medical, or other public aid
assistace to supplement that provide by State agencies. Outside Chicago, local
governnts ar the point of contact for public aid assistace.

The Ilois Deparent of Public Health interacts with the local health deparents which
provide servces thughout the State. Ths applies to al   local public health   deparents,
includig the Chicago Deparent of Public Health.

The Ilois State Board of Education oversees local boards of education and has oversight
responsibilty for al educational facilties in the State. Ths includes State universities,
colleges, techncal schools, private education companes, and other local education agencies
or communty- based organzations which provide servces under grants or contrcts. Most
SLIAG-relate educational servces (English as a Second Laguage, citinship, and literacy)
wi be provided thugh local education agencies and community-based organtions. The
local education agencies include local boar of education and colleges. The
communty- based organizations priary wi be those organzations that function as local
designated entities previously approved by the Imgration and Natualzation Servce (IS)
                 fig
to assist alens in      for tempora residence under IRCA.
                      FINDINGS AND RECOMMENDATIONS



Both FSA and Ilois were commtt to identiying problems and developing innovative and
effective solutions for them. Imedately following our on-site visits, FSA was given an
outle of the State concerns identied in this report

FINDING:   Since 1987, FSA ha held national conferences and issued informtion to States
on imlementing the SUAG program.


            The FSA held severa national conferences     begig   in 1987 to share
            inormation with States on SLIAG legislation , the implications for States, the
            application process, and the documentation of costs.

            The FSA also provided States with "Question and Answer" issuances and
            demographic data frm the INS.



FINDING: Illnois established a structure to identif   organizational and   program needs.


            The State of Dlois has considered resources, organzations, and Federal
            gudelies in preparg its SLIAG program. It held a number of meetings with
            State and local agencies to obtan input on SLIAG implementation.

            Chicago established an overal coordiation component within the Chicago
            Commssion on Huma Relations early in 1987. Ths Commssion s fuction is
            to develop a centr point of expertse on the IRCA legislation and to act as a
            coordiatig entity to digest and funnel inormtion to the varous city
            components perting to policy, procedurs, and statistical data The
            coordiatig agency also acts as the centr point of reference for State agencies
            and has sponsor a number of meetings on SLIAG.


             The cooatig       agency was found to work quite well in the Chicago ara
             where there ar considerable agencies and grantees both in size and number.
             Also, 90 percent of eligible legalize alens in the State reside in the Chicago
             ara.
FINDING: Illinois also took steps to document exenditures and control disbursements.


            The Ilois Deparent of Public Aid has contracted with a consultig fIrm to
            evaluate the State s systems and determe what modcations of present
            systems or expanded systems ar needed to implement SLIAG.

             Prsent plans cal for crating an  identication system which wi be use to fol­
             low eligible legalze alens for public aid or education and to identiy costs for
             public health. The fial specifcations were being developed when we viited
             the State agency. Accordg to the State agency, for ths short-term program a
             contrct would be   preferable to developing internal expertse.



             The Ilois State Board of Education established a lit on educational expenses
             and a system for keeping trck of servces and costs. At the tie of the review,
           - reimburement was lited to maxum of $4 per hour for eligible legalize
             alens attendig educational   progrs.
             Ths reimburement litation ,     combined with the statutory limit of $500 for ed­
             ucational servces per individual, could serve as a control mechansm. Once op­
             erational, the system wi permt lllinois to reord an eligible alen s attendace
             hour for reimburement and     prevent duplicate biling.


Neverteless, there ar   some fuds contrl   vulnerabilties. Findigs and recommendations
concerng these vulnerabilties follow under major topic areas.
PUBLIC ASSISTANCE

Assistanee or Service Activities

Ilois offers a number of public assistace programs and servces to its residents. To be
eligible for these program, an individual must be an llinois resident and, in most cases, meet
   S. residency reuiments.

The major program afecte by SLIAG ar Medcaid, Aid to the Medcaly Indigent, General
Public Assistace, and Emergency Medcal Assistace. In addition , public assistace includes
the State supplement to the Fedra Supplementa Securty Income progr, Pr-maternal
Care, and Project Chance.

The llois Deparent of Public Aid projected low use of public assistance durg FY
1988- 89 and anticipates incrmenta incrases in futue year. The State is evaluatig the cost
benefits of imlementig a system to clai costs for domestic violence shelters and substace
abuse tratment servces. If it appear that the system can be used to identi eligible
legal     alens, costs for these servces wil be included thugh amendig the application.

Documentaton of Eligible Legalized Alien Stats

Identiyig individuals as eligible legalze alens wi be made durg the intae process
where the individual wi be reuested to provide evidence of eligible legalze alen status
(I- 688, Temporar Resident Car or 1- 688A, Employment Authorization Card).

Program Costs

The Ilois Deparent of Public Aid plans to establish fmancial accountabilty though
implementig an extensive system which identies costs to eligible legalize alens. While
the extent of present fue documentation is unkown, begiing in 1988 the illiois
Deparent of Public Aid me was moded to accept a th- digit numeric code to identify
the individual as an eligible legalze alen. Use of the assigned alen number would be
beneficial, but me space presents a problem yet to be solved. Another identication
methodology considere by the State would be to match llinois Deparent of Public Aid
files agaist the INS records fie. The match would be by Social Securty number. The State
has reueste assistace from FSA in working with the INS on such a match.

The system wi be capable of associating costs to identified eligible legalze alens. This
should help in situations where duplicate costs ar being claied or expenditues are being
claimed for individuals who ar not eligible legalzed aliens.
Administratve Costs



There wi   be SLIAG   admstrative costs for activities of approximately five   Ilois
Deparent of Public Aid sta. At the local level , the Chicago Commssion on Human
Relations has a dedicated sta of th.Admnistrtive functions or progr management
operations wi include policy development, program implementation and functions, and
monitorig the system of associatig costs to identied   legal       alens. In the case of
assistace, State offces at the local level wi provide intae servces dictly. The State
  countig system wi collect    adstrtive      cost data for identiying SLIAG progr
individuals or offces, and indit costs of overhead for sta and other support The State
wi be contatig FSA to discuss and determe the speifics for allocatig costs to the
SLIAG progr.

The Ilois   Deparnt of Public Aid' wil    admnister   SLIG funds in cooperation with other
governnta agencies      and applicable contrctors. The adnistrtion  wi be thugh the
existig State   deparenta organtion using     support sta and purchased    services.

Drawdown of Funds and Cash Balances

Pressing SLIAG funds is the responsibilty of the lllinois Deparentof Public Aid' s fiscal
offce. Ths offce    calculates expenditus for the varous Ilois Deparent of Public Aid
progrs, fiscal reportg,    and fiancial funds control. In Ilois, the legislatue appropriates
fuds that ar identied to specifc progrs/offces.       The   SLIAG funds can be drawn to the
extent that expenditus have not exceeed appropriation. The Comptroller General
produce warts agaist the appropriations as long as funds are avaiable. Mter expenditus
for alowable SLIAG servces, documentation is prepar and coriuncate to the Ilois
Deparent of Public Aid. In tu, each progr has a fiscalfiancial component The
component is responsible for contrllng and monitorig funds thugh expenditues,          grt
reimburement, and fiancial reporng. In Ilois, trsfer of funds frm one agency to
another is basicaly the same as that of a servce contract

The Ilois   Deparnt of Public Aid is the grantee agency and is responsible for drawdown
of Federa funds, disbursement of funds to State agencies providig SLIAG-related servces,
and reportg those expenditus to FSA. Drawdown is made periodcally base on reported
expenditus and  is use to reimbure State and l al agencies or contrctors providing
SLIAG-related servces. In public assistace, there are no cash balances since funds must be
expende before reimbursement is claimed and drwdown is made.
PUBLIC HEALTH ASSISTANCE

Assistance or Serve Activities

The Ilois Deparent of Public Health interacts with the local health deparents, which
provide servces thughout the State. Services include health education and famy planning
progrs, communcable sexual disease screening and treatment, screenig assessment for
menta health and substace abuse, and maternal and child health, Hansen s disease, vision
hearg, and denta car. Genera health oversight services, such as monitorig/testig of the
envinment, ar also covered


As noted in more deta in the section on Ilois ' Organzational Strctue, the Ilois
Deparent of Public Health uses a network of local governent unts and
grtes/contrctors to provide servces thughout the State. Public health in Chicago is the
responsibilty of the Chicago Deparent of Public Health.

Documentaton of Eligible Legalized Alien Status

The natu of servces provided does not render the common practice of identiyig costs to a
parcular eligible legalze alen to be feasible. To protect the enti population" frm
communcable disease, public health servces are provided to anyone who nees them without
identig individuals served The Ilois Deparent of Public Health is relyig upon the
system being develope by Ilois Deparent of Public Aid thugh contracts to identiy
eligible legalze alens. The system is to have the capabilty of associatig costs for
alowable activities.

Program Costs

Under SLIAG, fudig for public health assistace is avaiable for services that ar par of the
State or local public health progr. The Illois Deparnt of Public Health plans to use
the State SLIG system being develope which wil identify costs to those alowable
activities and servces. In tu, a population ratio formula will be use to calculate specifc
State and local SLIAG-related costs. At the tie of the on-site visit, public health sta did not
know detas of this system nor speifcs related to report processing.

Public health/ costs wil be claied agaist allowable activities/servces. Without going to the
source for verication, the Ilois Deparent of Public Health is not in a position to ensure
that duplicate servces have not ben reuested and received by eligible legalzed alens, and
costs accred for those servces. At the tie of the review, the State was aware that there
could be a problem with ensurg duplicate services had not been requested and received.
anticipation of this situation occurng, the State was in the process of developing contrls for
the intae process to ensur that duplicate costs would not be reimbured by SLIAG funds.
Administrative Costs

Admstrative costS wi be broken down based on SLIAG and progr adnistrtion
activities. Admstrtion wi be identied to specifc sta and costs accred in developing
and implementig the SLIAG progr. Ongoing program costs wil be broken down into
costs of adisterig the SLIG progr in varous State and local agencies.



There wi   be SLIAG    adstrative costs for activities of approximately two public health
sta in Ilois. Admstrtive fuctions or progr management wi include policy
development, progr implementation, ongoing operations, and monitorig the system of
assoctig costs to identied legalze aliens. Admistrtive progr costs wi be
calculate and include the applicable indit cost rates established by the cognzant Federa
agency. Using the State accountig system, adistrative costs will be compiled for
reportg to FSA.

Drawdown of Funds and Cash Balances

The Ilois Deparent of Public Health is responsible for controllg and monitorig funds
thugh expenditus, grant reimburement, and fiancial reportg. Funds ar obtaed by
trsfer frm the llinois Deparent of Public Aid to cover expenditus. In most cases,
payments ar for cost reimbursement. However, because cash flow may be crtical to some
servce providers, advance paymnts do exist.

FINDING: The Illinois Departent of Public Health was unsure about its responsibilities for
implementing SUAG and the amunt of funding available for SUAG purposes.

The Ilois Deparent of Public Aid staf indicate that fundig and reportng for public
health activities would be though the State s public health agency. However, the Ilois
Deparent of Public Health indicate uncertty as to the depth of fuctions (Le.,
oversight/monitorig) expete of that offce and the extent of admtrative funding. The
Ilois Deparent of Public Health was aware of the system being developed by the Illnois
Deparent of Public Aid consultat to identi and document program costs, but did not
know of its proedures.

RECOMMENDATION: The Illnois Departent of Public Aid should provide further
guidance to the Illnois Departent of Public Health regarding the functions exected of the
Illnois Department of Public Health and the funding available under the SUAG program.
Also, the Illnois Departent of Public Health needs to understand how to monitor and report
program and adinistrative costs for health program classifed as public health.
EDUCATION

Assistance or Service Activities

The Ilois State Board of Education oversees local boards of education and has oversight
responsibilty for al educational facilties in the State. Ths includes State universities,
colleges, techncal schools, private education fmns, and other education organzations
agencies, as detaed in the setion on Ilnois ' Organizational Strctue. The State is claiming
reimbursement only for adult education servces. The State alady offers a number of
courses for English, literay,   and civic skis.   From   experience, it is known that a substatial
propoon of eligible legalze alens ar ilterate, which wi            reuir adssing their literacy
and citizenship skis.

Documentaton of Eligible Legalized Alien Status

The Ilois State Board of Education plans to ditly access llinois Deparent of Public
Aid recipient fies to documnt eligible legald alen status and use its identication system.
At intae, education agencies ar to question individuals regardig residency and citizenship
status, and, as applicable, to make reference to the INS car (I- 688, Tempora Resident Car
or 1- 688A , Employment Authorzation Cad).



Program Costs

The Ilois State Board of Education is awaiting procedurs from the illinois Deparent of
Public Aid to gude the agency on the system for identiying individual eligible legalized
alens and reporg servces provided. The intae proess will be moded to ensur
reordg eligible legald alens by the registrtion number. Information on prior education
attendace would be obtaed but offcials do not expect school attendace to be an issue
since most of ths population does not have a grat deal of formal education.

As mentioned before, the Ilois State Board of Education established a reimbursement of $4
for each hour eligible legalze alens attend educational progrs. Combined with the
statutory lit of $500 for educational servces per individual, ths hourly reimburement
litation could serve as a control mechanism. More importtly, the hourly reimbursement
litation wi be par of a system which will permt Illnois to monitor attndace to prevent
duplicate bilg.

Discussions were held with offcials of the city colleges and a community- based organization
the Polish Welfar Association. The Association plans to fie as a contractor to provide
educational services. Both offcials indicated that the $500 limitation for eligible legalized
alien education assistace was more than adequate considering costs and related funding
sources.
Administratve Costs



There wi be SLIAG adstrative costs for activities of approximately two education staf.
The ilinois State Board of Education s admistrative functions will include progr
management, policy development, program implementation and monitorig, and reportg.
At the local level , admstrtive expenses ar to be covere though the payment rate for
educational servces. The State accountig system will captu      dit and indict costs for
reportg by the Ilois Deparent of Public Aid.


Drawdown of Funds and Cash Balances

The procedur for interagency trsfer   of   funds is a servce contrct   tye of aIangement
sim to that for other Federa progrs. Trasfer of fuds wi be backed up by an agency
agrment on fuctions or activities to be conducted, and the presentation of a report which
identies servces perfored and expenditus.     Reports received from local unts wil be
compiled into Ilois State Board of Education report that ar submitt in lie with the
Ilois Deparnt of Public Aid' s interagency agrments. Based on these report, vouchers
wi be drwn to trsfer fuds from the Ilois Deparent of Public Aid to the ilnois State
Board of Education.

The Ilois State Board of Education is aware of the relationship of State matching funds
  ing claied for SLIAG reimburement that relate to matching for other Federal programs.
In most cases, the llliois Deparent of Public Aid reimburses other State or local agen ies
only for expenditues afer they have been made. In situations where an education grtee
requis an advance of funds to meet cash flow nees, provisions ar built into the system to
identiy such receivables for adjustment at a later time. The Ilois State Board of Education
indicate that suchcrt      balance adjustment is made with 3 months on a flow basis.



LOCAL AGENCIES

Assistance or Serve Activities

The State application include a separate sec on on projected costs for servces provided by
the city of Chicago. These ar detaed in the sections on ilinois ' Organizational Strctu,
Public Assistace, Public Health Assistace, and Education , and Goo Prctices in the
appendi. Since more than 90 percent of eligible legaliz alens in Illnois ar located in the
Chicago/Cook County area, aduate contrl at ths level is important if State agencies and the
Ilois Deparent of Public Aid ar to receive accurate expenditue and servce data. To
prepar for SLIAG, in 1987 Chicago established an offce within the Chicago Commssion on
Human Relations to conduct planning activities and coordiate SLIAG activities for all city
agencies.
Documentaton of Eligible Legalized Alien Stats

Loal agencies   in llinois follow the State agencies ' proedures. See program costs for the
city of Chicago. If eligible for a Federal progr,    the requirements of that progr are
followed

Program Costs

In Chicago, an executive   orr does not pennt requestig information relate to imgration
status. Therefore, city servces allowable as public assistace, public health assistace, and
education wi not be claied if they must be lined to individual eligible legalzed alens.
However, costs for educational servces provided though the system of colleges can be
identied to. individual eligible legalze aliens and claied for SLIAG reimbursement.

Administratve Costs



Admstrative costs for sta of the Chcago Commssion on Human Relations have been
appropriated and expended thugh the city of Chicago. The Commssion was to address the
city s response to the impact of eligible legalize alens on city deparents and serve as a
basic tehncal assistace resoune. The Commssion also developed a needs assessment to
work with the varous deparents to determe costs of services and the payment source for
those servces (locaVStatelFederalrivate). Each agency will report to the Commssion with a
combined city report for SLIAG expenditus to be made to applicable State deparents.

An importt concern of the Commssion regared the eligible legalze alens ' abilty to cope
                               assimated. Parcular efforts were made to involve the
and be effectively and effciently
community and employ local resoures to the maum to reach out to al individuals who
could qual for public assistace and public health assistace servces generay available in
the communty.

Drawdown of Funds and Cash Balances

The State s system provides for proessing a wmat to reimburse services only where
adequate funds have been approprated to the activity by the State legislatu, and the
expenditus have    not exceeed the appropriated amounts. Drwdown of Federa funds
mae agaist expended State and local funds. In most cases, the State reimburses other State
or local agencies, or contrctors/grtees only for expended funds. Where a contrctor or
grte reuies an advance of funds to meet cash flow reuirments, revisions ar built into
the system to identiy such receivables for adjustment at a later time. These proesses   have
been covere in the Public Health Assistace and Education sections of this report
CROSSCUTTING ISSUES
FINDING: The FSA application review process created a numer of signifcant problems                 for
Illnois. Also, the FSA's    application review process interfered with the State s ability to plan
for services.





                 Delay in FSA issuing the implementig regulation resulted in the State
                 inabilty to properly plan for SLIAG.



                 Numerous policy misinterpretations and disagrments resulted because FSA
                 did not provide defitive wrtten instrctions to assist ilnois in understadig
                 SLIG application reuirments.

                 The tie fres were too short for submittng the initial SLIAG application
                 FSA review and comment, and revisions of the application.

                 No formal appeals process exists if progrs or costs ar     denied in   the fIrst level
                 review.

Final reguations, published March 10, 1988, cal for the States to submit the FY 1988
application no later than May 16, 1988, with revisions submitted by July 1 , 1988. As such
deisions coverig the State progrs, servces, and SLIAG-related cost estimates had to be
made under shor tie fres and without a form process of              grt
                                                                     appeals. The
grt-makg      proess   followed durg  ths      tie
                                                mae   it dicult  for Ilois  to effectively and
effciently implement the SLIAG program Likewise, State planing was negatively impacted
by delays of FSA and the INS in promulgatig regulations, and changig policies that were
specifed in more than one drt regulation released at varous times by the INS.


RECOMMENDATION: The FSA should mae its application and grant process more
orderly. Specifcally, FSA should


                 provide defitive wrtten instrctions on the SLIAG application reuirments
                 and establish a dialogue with lllinois on SLIAG policy, compliance, and
                 reportg issues to mimie the confsion that occured in the initial application
                 process;

                 ensur that sufficient time is allotted to the application process including llinois
                 initial application , FSA' s review and formal comment, llinois ' consideration of
                 FSA comments and negotiation of disputes, and its submission of the revised
                 application for FSA approval; and
              develop an appeals process to use if program or costs associated with providig
              servces are denied in the initial application proess.



FINDING: The State was unale to access minimal eligible legalized alien informtion in
INS files.

Unti the maagement system is established the State generay wil not be able to identiy
eligible legalze alen status. Though INS data fies conta this inormtion, it is unavaiable
to other agencies due to unsolved confdentiality and transfer provision issues. Accordig to
the ilois Deparent of Public Aid, the State is thus unable to retractively identiy services
provide to reipients who may or may not be legalze alens. From recent inormation
obtaed thugh contacts with FSA, FSA is workig with INS to establish a way to match
flies so statistical data can be obtaned but not specifc eligible legalze   alen data.

RECOMMENDATION: The FSA should coordinate with INS to conduct matches of State
and INS records to permit the State to make retroactive determinations of SUAG eligibilty for
public assistance and education, as well as public health assistance.

FINDING: State systems to identify eligible legalized aliens and associated costs were not
operational at the time of this review.

Discussion with sta indicated that the Ilois Deparent of Public Aid had not yet
implemented mechansms to permt identiying servces and costs to individual eligible
legal    alens. The State is using a general contrctor to develop and implement a major
system that wi follow al recipients of public assistace and education servces. Also, a
contrctor wi be selected for aggrgate data collection and management of the client
identication and Prject Chance    (assistance-relate employment) servces for eligible
legal    alens receivig public assistace. The system will be tied to an eligible legalzed
alen identier for public aid and education assistace to clai costs associate with
individual eligiblelegal    aliens.

A th- digit identier has ben used by the nlinois Deparent of Public Aid since March
1988. The number of the Ilnois     Deparent of Public   Aid reipients entere onto the    rolls
since then is unown. The contrctor was conducting       a   special fie review to determne the
number of reords reflectig such an identier.

The system is planned to ditly access llinois Deparent of Public Aid recipient fies. In
the case of public health and education, local agencies or grtees wil report to the ilinois
State Board of Education , ilinois Deparent of Public Health, or dictly to the contractor
operating the identication system. At the time of the on-site visit, complete detais of this
system and specifc detais on the maner of report processing had not been finalized. The
llois State Board of Education will be releasing a Request for Proposal for local agencies to
submit proposals to provide language and civics education to eligible    legalaliens.
However, they wi not have a means to trace services to eligible legalzed alens and check for
duplication of services unti the Ilois Deparent of Public Aid' s system is implemented.

In the case of public health, costs wi be identified by activities and a ratio-to-population
formula wi be used to calculate thc? SLIAG porton of State and local expenditus. The
Ilois Deparent of Public Health indicated dependency on the identication system being
developed by the contrtor. Without the benefit of the system , components wi not be able
to monitor fuds to the component or    grte   contrtors.

RECOMMENDATION: The Illnois Departnt of Public Aid should complete developing
the automated system to monitor and control SUAG exenditues and disbursements. Also,
the Illnois Departent of Public Aid should adequately instrt local components and
agencies on the policy and procedures for identifying and keeping track of costs.

FINDING: The FSA' s definition of public assistance includes some public health activities
which created adinistrative   and service delivery problems for Chicago.

Chcago has a unque situation afecting the identication proess. Thugh an executive
                                                 about the legalization status of
order, the city does not permt its agencies to inquie
individuals seekig varous fors of assistace.

Loal public health components noted that present plans called only for monitorig
expenditus thugh applyig a ratio-to-population method. Public health cliics in Chicago
also provide a fu range of tratment for tertar level of car. Under curent FSNSLIAG
policy, such care would fal under the public assistace category. The distiction is importt
because identiyig a servce such as public assistance reuirs monitoring costs by
identiyig individual eligible legalze aliens served. As such, the intae identiyig,
monitorig, and reportg system at the public health servce clinics must be equipped to
distiguish public assistace from public health and to correctly report progr or service
costs.

The distiction   between public assistace versus public health creates   serious   admstrtive
and programatic diculties for the city of Chicago s public health agency. Public health
offcials ar concerned that any effort to document clinic health car servces will afect the
wigness of sick patients who ar ilegal alens to access public health servces.

RECOMMENDATION: The FSA should reconsider its position to classif" certain public
health services as public assistance and make appropriate adjustments to this position.
                           OIG RESPONSE TO COMMENTS


The FSA and the State of llinois   both   commented on the drt report.

THE FSA

The FSA has generaly    agr   with the OIG report findings and reommendations. The FSA
has taen a number of steps to improve implementig the SLIAG progr including
claryig program policies and proedurs.


The FSA questioned the statement that the new population would signcantly increase public
                                                          indicate that lare numbers
assistace and public health assistace servces. Early estimates
of alens would qualy to access the SLIAG program. The report recogn that inormation
obtaed durg the review aetered that substatial incrases in workloads and

projections.
expenditus could occur in these aras as well as in education. However, we understad from
recent discussions with State offcials that demand for servces is falng behid earlier


We report that no formal appeals proess exists if progr costs ar denied in the first level
review. We agree with FSA' s statement that the Grt Appeals Board does have jursidiction
over matters for   witholdig and    repayment of SLIAG funds. However, it was the States
concern that an effective appeals mechanism be in place for issues involvig program or
costs at the fIrt level of FSA' s review in the application proess.

The FSA defmed public assistace to include some public health activities, which crated
admstrtive and servce delivery problems for Chicago. The OIG recommended that FSA
reconsider ths position.

The FSA replied that they se th position  priary as an issue of cost identication and that
they wi work with the States to develop method of documentig costs which ar consistent
with FSA' s responsibilties as stewar of public fuds. We believe that FSA's actions to
identiy alternative method is respnsive to our concerns.

We contiue to believe that a strct interpretation which permts public health costs to be
clai     only for specifc eligible legalze alens is burdensome to the States and, in many
cases, would reuie considerable revisions to the State s system or statutory requirements.
However, we do agr with FSA' s proposed use of alternative systems, such as the Cost
Documentation System and a revised population ratio method system which reflects usage.
These would alow for accurate cost accounting without requirng States to develop new
systems or make considerable revisions to present systems. Where appropriate, other
alternatives might be used which would prouce a more effcient system for the States and
addss congrssional intent that the States would not be reuir   to establish new or elaborate
systems.

The FSA made numerous comments to clar cert matters of fact, policy, or procedur.
We have include these comments verbati in Appendix B.


The Stae of Illinois

The State has generay  agr  with the OIG report findigs and recommendations. Their
comments ar include verbati in Appendix C. Since the time of the on-site review, the
State has taen signcant steps to effectively implement the SLIAG program thugh
procedur and system changes.
 APPENDIX A



GOOD PRACTICES

A number of practices have been identied that other States could shar.

    Chicago established an overal coordnation component within the Chicago Commssion
    on Hum Relations early in 1987. This Commssion s function is to develop a centr
    point of expertse on the Imgrtion Reform and Control Act legislation and to coordi­
    nate inormation sent to the varous city components perting to policy, proedures, and
    statistical data. The coordatig agency also acts as the central point of reference for
    State agencies and has sponsore a number of meetigs on SLIAG.

    The coodiatig agency was found to work quite well in the Chicago ara where there
    ar considerable agencies and grtes both in size and number. Also, 90 percent of eligi­
    ble legalze alens in the State reside in the Chicago ara.

    Considered a goo practice, other States or local communities may wish to consider this
    concept where a centrze coordiation component might be beneficial.

    The Ilois Deparnt of Public Aid has contrcted with a consult:ng firm to evaluate

                       implement SLIAG.
    the State s systems and determne what modcations of present systems or expanded sys­
    tems ar neeed to

    Prsent plans cal for crating an identification system which wil   be used to follow  eligi­
    ble legalze alens for public aid or education and to identify costs for public health.
    The system is to be use for input frm State agencies and for output data for drawig
    funds and reportg. The fial specifcations were being developed when we visite the
    State agency. Accordng to the State agency, for this short-term program, a contract
    would be preferable to developing internal expertse.

    Dependig upon the sophistication of a State s systems and resources, the extent of eligi­
    ble legalze alens and servces, and the cost for a contrct,   a State   may want to explore
    such an alternative.

    The Ilois State Board of Education established a limit on educational expenses and a
    system for keeping trck of servces and costs. At the time of the review, reimbursement
    was lited to maxum of $4 per hour for eligible legalzed alens attndig educa­
    tional programs. This reimbursement limitation , combined with the statutory limit of
    $500 for educational servces per individual, could serve as a contrl mechanism. Once
    operational, the system wi permt llinois to record an eligible legalize alen s atten­
    dace hour for reimbursement and prevent duplicate billing.
 APPENDIX B



FSA' S COMMENTS

                                                                ..

                                                                                        APPENDIX B

"""'1(1,


                DEPARTMENTOF HEALTH &. HUMAN SERVICES	                    Family Support Admlnlstratioo



                                                                          Memorandum
    Date:	       June 27, 1989
    From:
                Acting       Assi   stan t   Secretary
                         for Family Support

    Subject:	
                OIG Draft Report: Implementation of the State Legalization
                 Impact Assistance Grants Under the Immigration Reform and
                 Control Act of 1986 - Illinois (OAI-07-88-00446)
    To:
                Richard P. Kusserow

                Inspector General


                At tached are the Family Support Administration comments on
                 the above draft report. Many of our c roents are technical
                 in nature due to the compl exi ty of the legi slation and the
                 fact that the SLIAG program was very new at the time of the
                review.
                We appreciate the assistance and cooperation we have

                received from you in response to our request to conduct this

                round of reviews of the SLIAG program. The reports we
                received are. very useful to us in understanding how States
                are implementing the program.



                                                                     'I
                Attachment




                                                         B-1

                        OIG DRA REPORT:
Implementation of the State Legalization Impact Assistance
Grants Under the Immigration Reform and Control Act of 1986:

                              ILLINOIS
The Family Support Administration' s comments are divided into
three sections: Comments   on background information and other
narrative material that does not relate directly to the draft
report' s findings, comments on the findings , and responses to the
draft report' s recommendations.

Narra ti ve :
Page 1 (Background) -- The draft report says, "This new

population will increase the demand for State public assistance

and public health assistance services significantly.   The draft

report isn't clear whose conclusion this is or upon what data and

analysis the conclusion is based. The final report should

clarify these points.


In the course of implementing SLIAG, we have discovered that

neither state and local public health programs nor, with =ew

exceptions, public assistance programs, inquire about legal
status.  This suggests that at least some aliens were using
these services before legalization and that newly legalized
aliens do not represent a " new population" for public assistance

and public health assistance 'services.  Preliminary cost data
from States suggests that newly legalized aliens are accessing

public assistance services at rates far lower than the general
population.  There are indications that a backlog of public
health needs existed and was identified duri g the medical
examinations required of all applicants for legalization.
However, there is no data to suggest that, other than this
temporary bulge in demand for public health services, newly
legalized aliens will generate a significant increase in demand

for public health assistance or public assistance services.

Page 4 (Findings and Recommendations) -- The draft report   says,
"Since 1987 , FSA has held national conferences and issued
information to States on implementing the SLIAG program.      Since
the OIG' s onsi te visits in August 1988, we have continued to
provide assistance to States. We have conducted several more
workshops and meetings to assist states in implementation. In
October 1988, we issued a compendium incorporating the extensive
formal guidance previously provided to States on methods of cost
documentation. We also have provided assistance to individual
States in the form of correspondence, telephone consultation, and
onsi te technical  assistance. We . are in the process of conducting
initial program reviews of the major States, and intend to visit

selected other States as well. We request that the final report

reflect this continuing dialog e with States.
                            --      --                    .. .




Page 8 (Program Costs) -- The draft report      says, "          the
Illinois Department of Public Health is not in a position to

ensure that duplicate services have not been requested and

received by eligible legalized aliens, and costs accrued for

those services. II We request that the final report clarify the
meaning of this   point. For public assistance and public health
assistance, the need for and provision of assistance or service
to eligible legalized alien clients must be determined on the
same basis as that for all other eligible clients residing in the
State or county.   These are program policy issues for which the
state or local administering agency has responsibility, not HHS.

Page 12 (Program Costs)            The draft report says, "In Chicago, an

executive order does not permit requesting information related to
immigration status. Therefore, city services allowable as public
assistance, public health assistance, and education will not be
claimed if they must be linked to individual eligible legalized
aliens. The FSA has provided states guidance on alternate
methods for establishing costs without checking ELA status of
individuals.          Guidance has been issued to states on how they can
use the population ratio method for establishing costs related to
public health   assistance.        Guidance has also been issued on how
the Cost Documentation System can be used to track costs for any

program category. Our policy is to assist states in developing

methods for establishing costs for all allowable programs in

their applications. We have been extremely flexible on this

issue, recognizing that in some cases it may not be possible or
practical to identify ELA program participants in some programs.
A state that is having difficulty establishing costs in a program
in its approved application' should get in touch with FSA.
Page 12 (Administrative Costs)            The draft report says, "An
important concern of the Commission regarded the eligible
legalized aliens I ability to cope and be effectively and
efficiently assimilated. . Particular efforts were made to

involve the community and employ local resources to the maximum

to reach out to eligible legalized aliens.           The above
description implies that outreach activities have been carried
out by city   agencies.        Outreach costs relating to legalization
requirements are . not allowable under current    law.     Outreach
activities relating to the availability of public assistance and
public health services are allowable to the extent that they are
generally available and not provided only to ELAs. The final
report should clarify the nature of the activities identified in
the draft report.

Findinas:

Finding:    The FSA   I s definition of public assistance includes
            some public health activities which creates ad­

            ministrative and service delivery problems for

            Chicago.
                                   B-3
Comments:	 We question how the definitions of public beal th and
          public assistance create service delivery problems for
          Illinois public health agencies.  By law and
          regulation, all programs or activities under both
          categories must be generally available. In practice,
          this means that SLIAG funds are available only to
          reimburse costs in ongoing, generally available
          programs. In most programs, immigration status is not
          a condition of eligibility. If the alien is eligible
          for services, he or she would receive those services
          regardless of whether they we e reimbursed under
          SLIAG. The final report should clarify this point.
           he draft report notes that "there is no quarrel with
          the logic of FSA I s definition of public assistance
          versus public health, " but does not explain why the OIG
          recommends that FSA reverse its   logic.  The final
          report should explain that the regulatory definitions

          of public assistance and public health assistance are

          based directly on the Immigration Reform and Control

          Act of 1986 (IRCA) which created SLIAG.

          Programs of public assistance are defined as programs

          that " provide for cash, medical or other
          assistance. .. desiqned to' meet the basic subsistence or
          health needs of individuals " (section 204(j) (2) (A)

          emphasis added). Consistent with IRCA I S explicit
          inclusion of medical assistance under the public
          assistance category, FSA considers state or locally
          funded programs that provide medical treatment to needy
          individuals to be public assistance programs.

          IRCA defines programs of public health assistance as

          programs which " provide   public health services,
          including immunizations for immunizable diseases,

          testing and treatment for tuberculosis and sexually-

          transmitted diseases, and family planning services"
          (section 204 (j) (3) (A)). These statutory definitions
          and the legislative history indicate that Congress

          intended to allow certain traditional public health

          functions under the public health assistance category

          and medical assistance to the needy under the public

          assistance category. In    implementing SLIAG, we have
          followed that statutory framework. We have defined
          public health assistance as, among other things,

          programs or activities that " are provided for the

          primary purpose of protecting the health of the general

          public" (45 CFR 402.2).    The scope of programs included
          in that regulatory definition of public health

          assistance goes far beyond the specific activities

          listed in 	IRCA.
            The public assistance/public health assistance
            categorization issue is primarily one of cost
            documentation requirements, not. the allowability of
            costs associated with any particular health program.
            Under our regulation, states are allowed to use a
            single ratio of the number of ELAs in the service
            population to the total service population to establish
            actual costs for public health assistance programs, as
            defined for SLIAG. Implicit in this method is the
            assumption that eligible legalized aliens will access
            programs in the same frequency and at the same cost as
            the general population. We do. not believe this
            assumption to be appropriate for medical assistance
            programs that provide treatment to needy individuals.
            To the contrary, the information that we have to date
            indicates that allowing use of the population ratio
            method for these programs generally would overstate
            costs, dramatically in some                       cases.
                                                 However, we would
            be willing to allow use of the population ratio method
            for any program for which there is an 
                     empirical basis
            to indicate that doing so would not overstate costs.


            FSA realizes that many public assistance and public
            heal th programs do not routinely collect information on
            immigration status but has found that many do collect
            social security numbers. That  is why we funded and
            devoted substantial staff resources to developing a
            system that will match the social security numbers of
            program participants with those of newly legalized
            aliens.  This system gives states information on the
            number of newly legalized aliens participating in a
            program and the cost of services to them. It is now
            available and allows states to establish costs for FY
            1988 as well as current and future years. Recently, we
            sent state SLIAG Single Points of Contact suggestions
            for other possible methods for establishing costs.
            None of these alternative methods requires setting up
            new administrative mechanisms or checking status of
            all program participants.

            We will continue to work closely with Illinois to

            develop methodologies to document costs for all

            programs in its approved appl ications.


Finding:
   The FSA application process created a number of

            significant problems for                        Illinois.
                                                Also, the FSA' 

            application review process interfered with the State

            ability to plan for services.


Comments: The draft report says that the time period for

          submission, review, revision and approval of the


                                                      B-5
          initial application was too short. We agree that it
          would have been preferable to have had a longer period
          of time between the publication of the final regulation
          and the deadline for submission and approval of FY 1988
          and FY 1989 applications. However, the final report
          should note that, because of the way IRCA set up the
          allocation formula, one maj or reason for the compressed
          timeframe was that we could not award funds to any
          state until all states' applications had been
          approved. In order for us to run the allocation
          formula, which IRCA requires to include estimates of
          costs, we must have approved estimates for all states
          before we can calculate States' allocations.

          The draft report says that " numerous policy

          misinterpretations and disagreements resulted because

          FSA did not provide definitive written instructions to

          assist Illinois in understanding SLIAG application

          requirements. Had there been more time, we would have
          communicated more extensively in writing. Our current

          practice is to communicate in writing on all

          substantive issues regarding state applications,

          amendments, and end-of- year reports.

          The report says that no formal appeals process exists
          if programs or costs are denied. The Grant Appeals
          Board has jurisdiction over issues related to the
          wi thholding and repayment of funds. For other matters,
          the State may follow normal procedures for disagreeing
          with an agency finding.

Recommendations

Recommendation: The FSA should reconsider its position to
          classify certain public health services as public
          assistance and make appropriate adjustments to this
          position.
Response:	 As discussed above,the primary issue relating to the
          definitions of public assistance and public health
          assistance is one of cost documentation. states would
          like to use the population ratio method for all
          programs run by their health departments. The final
          report should clarify whether the OIG is recommending
          that we allow use of the population ratio in programs
          where, as discussed above, its use would likely
          overstate actual costs.
          We bel ieve that to use the population ratio method for
          all programs run by State health departments would be
          inconsistent with our responsibility to exercise fiscal

          responsibili ty in administering SLIAG   funds. However,
          we recognize that some States may encounter
          difficulties in establishing actual costs, especially
          where ELAs are a small percentage of a state I s
          population or for programs that few ELAs access. We
          will continue to work with States to ensure that a

          method is available to allow them to establish actual

          costs for each program in their approved applications,

          consistent with our responsibilities as stewards of

          public funds.
Recommendation: The FSA   grant process should be made more
          orderly.
Response: The draft report I s recommendation refers
                                                   to the FSA
          grant process, but the specifics indicate that it is
          referring to the SLIAG application and grant award
          process.  The language of the recommendation should be
          more specific.


          We agree that the application process should be
          conducted in a more orderly fashion than was the case
          for the initial submissions. As the draft report
          indicates , the timeframes for the FY 1988 and FY 1989
          application processes were necessarily short. 

          effect, the States and we had to complete two

          application processes in less than a year. We do not

          expect similar problems for the FY 1990 and FY 1991

          application processes.


          To ensure that States have adequate time to prepare

          their FY 1990 applications based on empirical data, we

          have extended the deadline from July 15 to October 

          Addi tionally, we have encouraged States to submit as
          early as possible any new programs, questions, or

          issues, and have advised them that they may submit all

          or portions of their applications at any time.

          In order to reduce the possibility of

           isunderstanding, we have advised States that we will

          communicate all substantive questions and concerns on

          their FY 1990 applications in writing, as was done for

          States I end-of- year reports. We issued extensive

          written guidance on the FY 1990 application process and

          the standards we will apply. 

          The draft report also recommends that we develop an

          appeals process to use if programs or costs associated

          with providing services are denied in the initial

          applications process. We do not believe such a process
             is necessary. The Department' s Grant Appeals Board has

             jurisdiction over cases involving the repayment or

             wi thholding of   funds.
                                    Normal channels wi thin the
             Department are open to states that disagree with

             decisions made during the course of application review.

Recommendation: The FSA     should coordinate with INS to conduct
             matches of state and INS records to permit the State t.o
             make retroactive determinations of SLIAG eligibility
             for public assistance and education, as well as public
             heal th   assistance.
Response:	   The FSA has recently established the Cost
             Documentation System (CDS). This system matches
             social security numbers of State/local program
             participants with social security numbers of eligible
             legalized aliens in the ASVI data base. states are
             provided aggregate numbers of ELA program participants
             and costs associated with providing services to them.
             The system will enable States to document costs
             associated with ELAs participating in State and local
             programs without asking program participants for their
             immigration status or setting up new administrative
             mechanisms. The system also will match program
             participants with alien numbers of ELAs in the ASVI
             data base.
  APPENDIX C



ILLINOIS COMMENTS

                        ..
                      .. ..--             !!!!_	                                  . . . ,.   '"   ' ;.... ,. -..-,'".. :-" . ....-..
                                                                                                                              ...
                                                                                                                             APPENDIX C,




oj .	
                      'V                   Illinois Department of
                                           Public Aid
                      Susan S. Suter       Jesse B. Harris Building
                              Director	    100 S. Grand Avenue East
                                           Springfield. Illinois 62762- 0001


          July 19. 1989




         Hr. Rich rd P. KusseroM

          Inspector GenerAl

         Departaent 01 Health And HUlan Services

         011 ic. or th. Inspector General

         W,shington . D. C. 20201
         Dear Hr. Kusserow:


         Your letter of "ay 30. 1989 translitted th           draft inspection report.

         ent it led
                    1!Rl!!!D!!!j9D_ 91_         b!g!lj!!!i9D_              e!!j!!!D
           !!D!!_ YDg!!_ !b!_ 1!!jg!!!j9D_ B!29!!_ !Dg_ '9D!!91_         91.      . and
          requested our co..ents. ThAnk you for gr,nting the extlnsion to
        , July 19, 1989 for our couents. Ne hAVI rnh..ed the draft report
          and hAve the lollowing com.ents to the text:

         In the Executive SUllAry section on page ii. the eleventh parAgraph
         we hAV' the (allowing commenl. The $4. 00 p.r hour instructional
         rAte IAXi8U. for SLIAS rei.bursement hAS been revised to $5. 00 per
         hour (unless prior approvAl (or a higher rate is grAnted based on
         justifiAble circulstAnc.s).

         In the section reg ding Illinois ' orgAnizationAl structur. on pAge

         3 01 the report. the second parAgrAph statel that the Illinois

         DepArtment of Public Aid (IDPA) is State-Ad.inistered in the

         Chicago/Cook County Area And is ad.inistered by local governments

         elsewhere in the State. This state.ent is true only for the 6enerAl

         Alliltance ProgrAm. It does not Accuralely describe the Statewide
         operation or IDPA in the administration of All other assistance
         progra.s (i. l. AFDC. AABD. Food St.mps. Hedicaid And       This AHI).
         paragraph should be clarified to establish greater credibility for
         IDPA.

         Ne realize that this report is baled on An August 1988 review.
         However . it lay be helpFul to note that. for new applicants. the
         individuals ' Alien rlgiltration numbers Are nON being entered And
         rlt.ined in the client dAta bAse .nd. beginning July 3. 1989. all
         individuals who claim to be legalized aliens will have their statuI
         verified through the INS Systematic Alien VerifiCAtion for
        Ent i tl ement (SAVE) Program.


                                                    C-l	                                          I.
 :.




r-..
        Page 2



        In the third paragraph same section , reference is made to the

        network of local health departments throughout the          There
           State.
        appears to be some confusion regarding the Chicago Department of

        He a It h , and' pro v ide r s a f pub 1 i c h e a It h   s e r v ice   s.

                    Local health departments in Illinois are all local
                    government units, including the ChiCigo Deparhent of
                    Health. A local health depart.ent lay be composed of an
                    entire county, a municipality, or several municipalities to
                    comprise a district. The Illinois Department of Public
                    Health (IDPH) interacts Nith all local health departaents
                    in the saae manner.

                    The local health departments Ni 11 be the providers of
                    public health services in the local areas. The draft
                    report is incorrect in stating that for- prof it businesses
                    and other non- prof it agencies are used.

       It should be noted that I aore accurate reference to locally

       provided services is made on page lev en of the draft report.


       In the fourth paragraph lame section, the description of the
       Illinois Slate Board of Education (ISSEI organizational function is
       not accurate. ISBE oversees local boards or Iducation, not
       educational facilities in Illinois. ISBE is, hONever , responsible
           oVlrsight or all SLIAG-runded educational services regardless of
       the type of facility providing the services.

       In the third paragraph section o Education, page lOt Ne have the
       following comment. ISBE never planned or Istablished a maximum of
       125 instructional hours per Eligible Legalized Alien (ELA). There
       is no ii it on the number of hours an ELA aay attend SLIAG-runded
       instructional services.

       nur responses to the two rec08mendations relevant to Illinois are

       allached.
       If you have any questions relative to our co.ments, please contacl
       Mr. Robert J. Schwarz, Chief Auditor at (217)7B2-11

       Sincerely,

                         4.

       Susan s. Suter


       SSS: j 1m

       Atllchunl
       Ct: Breg O' Connor
           Gail Huecker
           Mary Ring - Illinois Departmenl Public                     Hu lth
            Noreen Lope: - Illinois Slate Board of                     Education
.-
-'-




                                                  OA I   -07-88-00446
                                            IMPLEMENTATION OF THE

                                     STATE LEGALIZATION IMPACT ASSISTANCE

                                     GRANTS UNDER THE IMMIGRATION REFORM

                                           AND CONTROL ACT OF 1986


                                         RECOH    ENDAT IONS       RESPONSES

                                                 STATE DF ILLINOIS


         2!m!D     12n_ !1 :
      The Illinois Department of Public Aid should provide further guidance to the

      Illinois Department of Public Health regarding the functions expected of the

      Illinois Departlent of Public Health and the funding available under the SLIAG

      progra    Also, the Illinois Departaent of Public Health needs to understand
      how to monitor and report progral and administrative costs for health programs
      classified as public health.

            ag!a     B!!22     i!:
      In the di cus5ion of this finding it was stated that soae confusion existed
      between IDPH and IDPA regarding which agency would be responsible for
      oversight, monitoring and reporting of public health expenditures. Because
      final definitions of public health services had not bIen received frol FSA, no
      decision could be reached an allowable activities at other state Igencies
      which provide services in the public heallh                  Irea.
                                                         EXlaples of such Igencies
      include the Deparlment of Alcohol and Substance Abuse, Illinois Environlental
      Protection Agency, and Department of Nuclear                  Sarety.
                                                            At the tiae of the
      program review, there was insufficient information Ivailable to lake a
      decision IS lo which agency (IDPH Ind IDPAI .ould .ork .ith these olher Slill

      agencies to id ntify appropriate SLIAS                   clails.
                                                      Since lhe review, Ind receipt
      of necessary aaterials frol FSA and INS, IDPA as the Stlte s lead SLIAG
      agency, has assuaed responsibility for developing the clai.ing process for
      olher state agencies.


      Slaff from IDPA have been eltreaely helpful through the enlire life of SLIAG
      and have al all tiae been cooperative and                  inslructive.
                                                               Slarf of IDPH are
      knowledgeable about monitoring and reporting program and administrative
      costs.  Since receipt of program definitions and counls                   of eligible
                                                                           legali
      aliens from which populalio h ralios have been developed, IDPH has begun the
      claiming process at both the slale and local levels.

      Final ELA numbers necessary to establish actual FFY' B7-BB costs under the
      populalion ratio method Nere nol provided to the state until Harch 24, . 1989.
      The deter_inalion of actual SRF and local fund reimbursement for public health
        livilies was not possible until receipl of final ELA nuabers froa HHS.
                        !!:
.."f


       Public Health activities alloNable under SLIAS are restricted to those
        generally available to lhe residenls of the slale     This prohibition limits
       IDPH functions to the administrative activity of claiaing reimburseaent for
       existing state and local programs through application of the population
       ratio. . Fundin . as iaplied in the DIG report Mas never a possibility; only
       reimbursement for a pro- rata share of existing operations 15 alloNable under
       SLIAG Regulations.


       IDPA and IDPH continue to Mork Milh HHS in the operation of SLIAG. HHS/ORR
       staff recently conducted a SLIAG program orientation visit in Illinois and aet
       Mith staff frol IDPH, IDPA and ISBE. Contacts such as these assist in
       addressing concerns and clar ifying issues in the iapleaentation and operation
       of SLIAS. Also David K. 6riffith, LTD., a private consulting fir. was hired
       to assist IDPH in identifying and reporting state public health costs.

          e!!! !tie
       The Illinois Departaent of Public Aid should coaplet. developing lh. autoaated
       system to aonitor and control SLIAG expenditures and disburseaents. AIIO, lhe
       Illinois Depart.ent of Public Aid should adequal.ly instruct local coaponents
       and agencies on lhe policy and procedures for identifying and keeping track of
       costs.
        t!t!_ 6g!     R!i2en!!:
     IDPA has continued to Mork with HHS and "artin "ari.tLa Data Systeas in lhe
     development and operation of lhe Cost Docuaentation System (CDS). HHS and
     IDPA believe that CDS (social security .atching  ystea) is an imporlant aethod
     01 eslablishing costs for public assistance and health costs. Further, IDPA

     has continued to work with local agencies concerning the iaplementation and

   . operation of SLUG.


       IDPA' s Bureau of Fiscal Operations (BFO) has developed a .onthly activity
       report oJ Fund   236.             delinules
                             Such: report.          t.he draNdoNn, the expenditures and
       cash balance. This report speci f ies these three accounting coaponents by t.he
       respective agency, i. I., IDPA, IDPH and ISBE. Such rlport is reconcil.d each
       aonth Mith lh. St.ate Comptroller s records. Additionally, BFO is aaintaining
       a ledger of the SLIAG Administrative  costs.   Such costs are posLld on a
       quarterly basis as a result of the Cost Allocation Plan aethodology.
